Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

Criminal Law

Because both prongs of the
Strickland test
present mixed questions of law and fact, the
Supreme Court employs a mixed standard of
review, deferring to the circuit court's factual
findings that are supported by competent,
substantial evidence, but reviewing the circuit
court's legal conclusions de novo. U.S.C.A.
Const.Amend. 6.

KeyCite Yellow Flag - Negative Treatment
Distinguished by State v. Dougan, Fla., October 20, 2016

121 So.3d 445
Supreme Court of Florida.
Michael Wayne SHELLITO, Appellant,
v.
STATE of Florida, Appellee.
Michael Wayne Shellito, Petitioner,
v.
Michael D. Crews, etc., Respondent.

7 Cases that cite this headnote
[2]

Nos. SC10–2043, SC11–1447.
|
July 3, 2013.

[3]

[1] counsel's deficient performance in failing to follow up
with the indications of defendant's mental health issues was
ineffective assistance, and

before trial did not violate

Criminal Law
Representation

Adequacy of

On a claim of ineffective assistance of counsel, a
fair assessment of attorney performance requires
that every effort be made to eliminate the
distorting effects of hindsight, to reconstruct the
circumstances of counsel's challenged conduct,
and to evaluate the conduct from counsel's
perspective at the time. U.S.C.A. Const.Amend.
6.

Holdings: The Supreme Court held that:

[2] state's withdrawal of its notice of intent to prosecute
witness as a habitual violent felony offender (HVFO) shortly

Criminal Law
Presumptions and burden
of proof in general
On a claim of ineffective assistance of
counsel, there is a strong presumption that
trial counsel's performance was not deficient.
U.S.C.A. Const.Amend. 6.

Synopsis
Background: Following affirmance on direct appeal of
defendant's conviction for first-degree murder, as well as his
death sentence,
701 So.2d 837, defendant filed a motion
to vacate his conviction and sentence. The Circuit Court,
Duval County, Peter Lennings Dearing, J., denied motion.
Defendant appealed and filed a petition for writ of habeas
corpus.

Counsel

6 Cases that cite this headnote
[4]

Criminal Law
general

Strategy and tactics in

Defendant asserting a claim of ineffective
assistance of counsel carries the burden to
overcome the presumption that, under the
circumstances, the challenged action might
be considered sound trial strategy. U.S.C.A.
Const.Amend. 6.

Giglio.

Affirmed in part and vacated in part and remanded.
Petition denied.

1 Cases that cite this headnote
West Headnotes (27)
[1]

Criminal Law

[5]

Criminal Law

Determination

Review De Novo

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

On a claim of ineffective assistance of counsel,
judicial scrutiny of counsel's performance must
be highly deferential. U.S.C.A. Const.Amend. 6.

[6]

Criminal Law
composition

Criminal Law
composition

[8]

Criminal Law

[10]

Presentation of witnesses

Defense counsel's failure to call defense
investigator to testify to substantiate testimony
of capital murder defendant's mother that
defendant's friend was the actual shooter was not
deficient performance, as element of ineffective
assistance; counsel testified that listing his
investigator as a trial witness could have resulted
in the revealing of facts and circumstances of the
investigation. U.S.C.A. Const.Amend. 6.

Criminal Law

Examination of witnesses

Criminal Law
misconduct

Other offenses and prior

Defense counsel's questioning of witness to
whom capital murder defendant allegedly
confessed, which led to witness testifying that
defendant had held a gun to her head and said
that if she talked he would kill her because he
had killed before, was not deficient, as element
of ineffective assistance; counsel testified that it
was very important for him to delve into this
area and he did not anticipate opening the door to
damaging evidence. U.S.C.A. Const.Amend. 6.

Jury selection and

Defense counsel's failure to question prospective
jurors who had friends or relatives who
possessed technical knowledge pertinent to
capital murder prosecution was not ineffective
assistance, as trial court found counsel's
testimony that he conferred with defendant about
the selection of jurors, to be more credible and
more persuasive than defendant's allegations,
and the specialized training possessed by the
particular jurors did not in and of itself rise to
the level of a for cause challenge and did not
demonstrate actual bias. U.S.C.A. Const.Amend.
6.

Criminal Law
Capacity to commit crime;
insanity or intoxication
Defense counsel's decision not to present
evidence of capital murder defendant's alcohol
and marijuana use to establish a voluntary
intoxication defense was a reasonable, tactical
one, and, thus, was not ineffective assistance;
several witnesses at the evidentiary hearing
testified to defendant's daily use of alcohol and
marijuana, but an intoxication defense would
have been inconsistent with the defense's theory
that defendant did not commit the murder.
U.S.C.A. Const.Amend. 6.

Jury selection and

Defense counsel's decision not to question
prospective jurors during voir dire about capital
murder defendant's use of alcohol and marijuana
was a tactical one, and, thus, was not ineffective
assistance; counsel testified that he decided
not to question jurors on this topic because
in his experience, the juror venire were not
very sympathetic to drugs and alcohol as
an excuse and even to some extent, viewed
such as an aggravating circumstance. U.S.C.A.
Const.Amend. 6.

[7]

[9]

[11]

Criminal Law
Adequacy of investigation
of mitigating circumstances
Criminal Law
sentencing phase

Presentation of evidence in

In reviewing a claim that counsel's representation
was ineffective based on a failure to investigate
or present mitigating evidence in a capital
murder prosecution, the Supreme Court requires
defendant to demonstrate that the deficient
performance deprived the defendant of a reliable
penalty phase proceeding; in determining
whether the penalty phase proceeding was
reliable, the failure of counsel to investigate
and present available mitigating evidence is a
relevant concern along with the reasons for not
doing so. U.S.C.A. Const.Amend. 6.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

1 Cases that cite this headnote

[17]

Criminal Law

Death Penalty

Prejudice during penalty phase of capital murder
[12]

Criminal Law

Preparation for trial

prosecution under the
Strickland standard is
measured by whether the error of trial counsel
undermines the Supreme Court's confidence in
the sentence of death when viewed in the context
of the penalty phase evidence and the mitigators
and aggravators found by the trial court; this
standard does not require defendant to show that
counsel's deficient conduct more likely than not
altered the outcome of his penalty proceeding,
but rather that he establish a probability sufficient
to undermine confidence in that outcome,
and, too assess that probability, the Court
considers the totality of the available mitigation
evidence and reweighs it against the evidence in
aggravation. U.S.C.A. Const.Amend. 6.

It is unquestioned that under the prevailing
professional norms, counsel has an obligation
to
conduct
a
thorough
investigation
of the defendant's background. U.S.C.A.
Const.Amend. 6.

[13]

Criminal Law

Preparation for trial

Counsel must not ignore pertinent avenues for
investigation of which he should have been
aware. U.S.C.A. Const.Amend. 6.

[14]

Criminal Law

Preparation for trial

Counsel has a duty to make reasonable
investigations or to make a reasonable decision
that makes particular investigations unnecessary.
U.S.C.A. Const.Amend. 6.

[15]

Criminal Law
sentencing phase

1 Cases that cite this headnote
[18]

Criminal Law
sentencing phase

Presentation of evidence in

Criminal Law
Adequacy of investigation
of mitigating circumstances
Criminal Law
sentencing phase

Presentation of evidence in

Defense counsel's failure to follow up with the
indications of capital murder defendant's mental
health issues, or to have defendant's mental
health issues presented by an expert at trial
to explain their significance and impact on his
behavior at the time of the murder constituted
deficient performance, as element of ineffective
assistance. U.S.C.A. Const.Amend. 6.

Presentation of evidence in

Defense counsel's deficient performance in
failing to follow up with the indications of capital
murder defendant's mental health issues, or to
have defendant's mental health issues presented
by an expert at trial to explain their significance
and impact on his behavior at the time of the
murder prejudiced defendant, and, thus, was
ineffective assistance; postconviction evidence
showed a different picture of defendant's
upbringing than what was presented at trial,
and based on consideration of the plethora of
available mitigation and the dearth of mitigation
actually presented, when reweighed against the
aggravation in the case, undermined Supreme
Court's confidence in the outcome of the penalty
proceeding. U.S.C.A. Const.Amend. 6.

Counsel's decision not to present mitigation
evidence during penalty phase of capital
murder prosecution may be a tactical decision
properly within counsel's discretion. U.S.C.A.
Const.Amend. 6.

[16]

Criminal Law
Adequacy of investigation
of mitigating circumstances

1 Cases that cite this headnote
[19]

Criminal Law

Review De Novo

Criminal Law

Discovery and disclosure

1 Cases that cite this headnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

Criminal Law
counsel

Arguments and conduct of

[23]

Brady and
Giglio claims present mixed
questions of law and fact; the Supreme Court
defers to the lower court's findings of fact if
they are supported by competent, substantial
evidence, but reviews the trial court's application
of the law to the facts de novo.
4 Cases that cite this headnote
[20]

Criminal Law

to defendant for

[24]

Criminal Law

[25]

Brady purposes.

trial did not violate
Giglio, though witness
testified falsely at trial when he said he was
facing a 15-year mandatory minimum sentence,
as this testimony was not “material,” in that
there was no reasonable likelihood that this false
testimony could have affected the guilty verdict.

[26]

Criminal Law

Presence of Accused

Criminal Law
During preliminary
proceedings and on hearing of motions
Defendant has a constitutional right to be present
at all crucial stages of his trial where his absence
might frustrate the fairness of the proceedings;
however, this right does not confer upon the
defendant the right to be present at every
conference at which a matter pertinent to the case
is discussed, or even at every conference with the
trial judge at which a matter relative to the case
is discussed.

Criminal Law
Constitutional obligations
regarding disclosure
To meet the requirements of
Brady, a
defendant must show that (1) favorable evidence,
either exculpatory or impeaching, (2) was
willfully or inadvertently suppressed by the
State, and (3) because the evidence was material,
defendant was prejudiced.

Use of False or Perjured

1 Cases that cite this headnote

1 Cases that cite this headnote
[22]

Criminal Law
Testimony

False evidence is material, for Giglio purposes,
if there is any reasonable likelihood that the false
testimony could have affected the judgment of
the jury.

Impeaching evidence

State's withdrawal of its notice of intent to
prosecute witness as a habitual violent felony
offender (HVFO) shortly before capital murder

Criminal Law
Duty to correct false or
perjured testimony
A prosecutor has a duty to correct testimony
he knows is false when a witness conceals
bias against the defendant through that false
testimony.

1 Cases that cite this headnote
[21]

Use of False or Perjured

To establish a violation of Giglio, a defendant
must prove: (1) that the testimony was false, (2)
that the prosecutor knew the testimony was false,
and (3) that the statement was material.

Impeaching evidence

There was no agreement entered into between
witness and the state whereby witness's
testimony in capital murder defendant's trial was
agreed to be offered in consideration for the
state's disposition of witness's armed robbery
case, and, thus, there was no evidence favorable

Criminal Law
Testimony

2 Cases that cite this headnote
[27]

Criminal Law
During preliminary
proceedings and on hearing of motions
Capital murder defendant's absence from
courtroom during guilt phase when state's
investigator informed trial court that witnesses
had told him that they overheard two women say

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

they were going to get the names and addresses
of all the trial witnesses and pay them a visit
did not implicate fairness of proceedings, as this
was not a critical stage of the trial, and defendant
could not have provided any useful input had he
been present.
1 Cases that cite this headnote

Attorneys and Law Firms
*448 Linda McDermott of McClain & McDermott, P.A.,
Estero, FL, for Appellant/Petitioner.
Pamela Jo Bondi, Attorney General, and Stephen R. White,
Assistant Attorney General, Tallahassee, FL, for Appellee/
Respondent.
Opinion
PER CURIAM.
Michael Wayne Shellito appeals an order of the circuit court
denying his motion to vacate his conviction of first-degree
murder and sentence of death filed under Florida Rule of
Criminal Procedure 3.851 and petitions this Court for a writ of
habeas corpus. We have jurisdiction. See art. V, § 3(b)(1), (9),
Fla. Const. As explained below, we affirm the postconviction
court's denial of relief as to Shellito's guilt phase claims.
We reverse the postconviction court's denial of relief as to
Shellito's claim of ineffective assistance of trial counsel at the
penalty phase. Accordingly, we vacate the sentence of death
and remand for a new penalty phase proceeding. We also deny
his petition for writ of habeas corpus.

FACTS
Michael Shellito (“Shellito”) was convicted and sentenced to
death for the murder of Sean Hathorne in Duval County. The
facts of this case are set forth in Shellito's direct appeal of his
conviction and death sentence:
The State presented the following evidence at trial. On
the evening of August 30, 1994, Shellito and a number of
other individuals were staying at Stephen Gill's apartment.
Shellito left the apartment around midnight on August
30 and returned approximately an hour later. When he
returned, he showed Ricky Bays a gun that he said he “got

from a van” that night. Kevin Keyes, who lived about six
miles from Gill's apartment, had a .9 millimeter gun stolen
*449 from his truck sometime after 10 p.m. on that same
night.
Around 4 a.m. on August 31, Shellito and Gill took Gill's
girlfriend home in Gill's mother's white pickup truck. The
girlfriend stated that, a block from her house, Shellito told
Gill to let him out because he needed to “talk to someone.”
Gill let Shellito out and took his girlfriend home. Gill and
his girlfriend talked for five minutes and then he left.
About this same time, Michael Green was awakened by a
noise in front of his home. When he looked out his window,
he saw a white pickup truck in the road; saw the victim
standing by the truck; heard a pop; and saw the victim spin
around, run, and fall over by Green's gate. By the time
Green called 911, the truck was gone.
Police found the body of eighteen-year-old Sean Hathorne
by Green's front fence. The cause of death was a gunshot
wound to the chest. A shell casing was found near the body.
Shellito and Gill returned to Gill's apartment together
around 5:30 a.m. At that time, Shellito told Ricky Bays that
he shot someone after they dropped off Gill's girlfriend.
He told Bays that he saw a man walking down the street,
stopped and shook him down, and, after determining that
the man had no money, shot him. Shellito did not say
whether Gill was involved, but Gill was present when
Shellito related the story to Bays.
On the evening of August 31, a group was again gathered
at Gill's apartment. Shellito showed Lateria Copeland and
Theresa Ritzer a gun and told them both about the murder,
stating that he told the victim he was “out of gas” just before
he shot him.
That same night (in the early hours of September 1), police
raided the apartment. Shellito jumped out a window and
ran but was stopped by a police dog. After Shellito aimed
a gun at an officer, officers shot and wounded him. The
gun recovered from Shellito was identified as the gun that
fired the shell casing found at the murder scene and that
was stolen from Kevin Keyes' truck the previous night.
In his defense, Shellito argued that the murder was
committed by Gill. Shellito also emphasized that Bays was
a convicted felon and had been in jail since the night of
the raid on unrelated charges. Shellito also presented one
of Bays' cellmates, who stated that Bays had papers with

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

him, including one that looked like a police report, and that
Bays made an offer to him to “jump” Shellito's case, i.e.,
trade information for a more lenient sentence. However, the
story related by the cellmate about the murder at issue was
totally inconsistent with the facts.
Shellito's mother testified that Gill, whom she had met only
once before, came to her house after Shellito was charged
with the murder and confessed to her that he had committed
the crime. Shellito's father testified that he overheard parts
of the conversation between Gill and Shellito's mother and
that he heard Gill say he told his attorney that he killed the
victim. Although neither reported this story to the police
until a week before trial, Mrs. Shellito stated that she
thought she told a court employee about her conversation
with Gill. On rebuttal, the court employee stated that she
had a brief conversation with Mrs. Shellito, but that Mrs.
Shellito said nothing about someone else having committed
the murder.
Shellito also presented testimony from a witness who lived
across the street from the murder site. The witness testified
that around 4 a.m. he heard tires *450 screeching as if a
vehicle had stopped suddenly, and he looked out a window
and saw the shadow of a person moving around the back of
a truck. The person appeared to be coming from the driver's
side of the vehicle and was not the person who was shot.
On cross-examination, the witness admitted that he was not
positive about this information and that he did not have on
his glasses when he looked out the window.
Shellito was convicted as charged.
At the penalty phase proceeding, the State presented
evidence that Bays and Shellito were convicted of two
armed robberies they committed on the night of August
31 before the raid, and that Shellito was convicted for
aggravated assault on a law enforcement officer (from the
night of the raid) and for a March 1994 aggravated assault.
Bays testified that Shellito held the gun to the victim's head
during both of the robberies. One of the victims related a
similar story.
Shellito presented testimony that his father was an
alcoholic and was in the Navy and away a lot; that,
when Shellito was about two years of age, the State
took custody of the children for a month while their
mother was in jail; that Shellito stuttered badly as a child,
was very loving, and was hit by his father on at least
three occasions. Shellito's mother testified that he was
emotionally handicapped, had reading and psychological

problems, had a learning disability, had organic brain
disorder, and had tried to kill himself. A psychologist's
report from Shellito's early childhood reflected that he
had numerous problems as a child. Other reports showed
that he had a low-to-average IQ, was learning disabled
and emotionally handicapped, and suffered from organic
mental disorder, conduct disorder, and developmental
language disorder.
The jury recommended death by an eleven-to-one vote,
which the trial judge followed. The judge found two
aggravating circumstances (prior violent felony and
pecuniary gain/committed during a robbery (merged)). In
mitigation, he gave slight weight to Shellito's age and
background and character. 1
Shellito v. State, 701 So.2d 837, 838–40 (Fla.1997)
(footnote omitted), cert. denied, 523 U.S. 1084, 118 S.Ct.
1537, 140 L.Ed.2d 686 (1998). No additional evidence was
offered at the
Spencer 2 hearing. This Court affirmed
Shellito's murder conviction and sentence of death on direct
appeal.
Shellito, 701 So.2d at 845. Shellito moved for
postconviction relief pursuant to Florida Rule of Criminal
Procedure 3.851, which was denied by the postconviction
court. Shellito now appeals this denial order and petitions this
Court for a writ of habeas corpus.

ANALYSIS
Shellito raises the following eight issues in his appeal of the
postconviction court's denial of his 3.851 motion: (1) whether
trial counsel provided ineffective assistance of counsel at the
penalty phase; (2) whether trial counsel provided ineffective
assistance of counsel at voir dire and at the guilt phase;
(3) whether the State committed
Brady or
Giglio
violations; (4) whether Shellito was rendered adequate mental
health assistance under
Ake v. Oklahoma, 470 U.S. 68,
105 S.Ct. 1087, 84 L.Ed.2d 53 (1985); (5) whether trial
counsel provided ineffective assistance of counsel regarding
prosecutor's arguments at the penalty phase; (6) whether
Shellito's constitutional *451 rights were violated due to the
preparation of the sentencing order; (7) whether Shellito's due
process rights were violated based on a trial witness' contact
with the jury; and (8) whether Shellito's death sentence
violates the Eighth Amendment.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

Shellito also raises the following six issues in his habeas
petition: (1) whether appellate counsel was ineffective in
failing to raise a claim that the trial court erred in sentencing
Shellito when it relied on materials not presented in open
court; (2) whether appellate counsel was ineffective for not
raising a claim that Shellito was absent from critical stages
of his trial; (3) whether appellate counsel was ineffective
for failing to raise a claim that evidence of Shellito's
prior convictions was inadmissible; (4) whether appellate
counsel was ineffective for failing to raise a claim that
the use of Shellito's juvenile conviction as an aggravator
violated
Roper v. Simmons, 543 U.S. 551, 125 S.Ct. 1183,
161 L.Ed.2d 1 (2005); (5) whether appellate counsel was
ineffective for failing to raise a claim that the trial court
precluded Shellito from presenting mitigation in violation
of

Lockett v. Ohio, 438 U.S. 586, 98 S.Ct. 2954, 57

L.Ed.2d 973 (1978), and
Hitchcock v. Dugger, 481 U.S.
393, 107 S.Ct. 1821, 95 L.Ed.2d 347 (1987); and (6) whether
Florida's death penalty statute violates
Ring v. Arizona,
536 U.S. 584, 122 S.Ct. 2428, 153 L.Ed.2d 556 (2002). We
first consider Shellito's ineffective assistance of trial counsel
claims. We then address Shellito's claims as they relate to the
guilt phase. 3

Ineffective Assistance of Trial Counsel
[1]

Following the United States Supreme Court's decision

in
Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984), this Court has held that for
ineffective assistance of counsel claims to be successful, two
requirements must be satisfied:

First, the claimant must identify
particular acts or omissions of the
lawyer that are shown to be outside the
broad range of reasonably competent
performance
under
prevailing
professional standards. Second, the
clear, substantial deficiency shown
must further be demonstrated to have
so affected the fairness and reliability
of the proceeding that confidence in
the outcome is undermined. A court
considering a claim of ineffectiveness
of counsel need not make a specific

ruling on the performance component
of the test when it is clear that the
prejudice component is not satisfied.

Maxwell v. Wainwright, 490 So.2d 927, 932 (Fla.1986)
(citations omitted). Because both prongs of the
Strickland
test present mixed questions of law and fact, this Court
employs a mixed standard of review, deferring to the circuit
court's factual findings that are supported by competent,
substantial evidence, but reviewing the circuit court's legal
conclusions de novo. See Mungin v. State, 79 So.3d 726,
737 (Fla.2011); Sochor v. State, 883 So.2d 766, 771–72
(Fla.2004).
[2]

[3]

[4]

[5]

There is a strong presumption that trial

counsel's performance was not deficient. See
Strickland,
466 U.S. at 690, 104 S.Ct. 2052. “A fair assessment of
attorney performance requires that every effort be made to
eliminate the distorting effects of hindsight, to reconstruct
the circumstances of counsel's challenged conduct, and
to evaluate the conduct from counsel's perspective at the
time.”
Id. at 689, 104 S.Ct. 2052. The defendant carries
the burden to “overcome the presumption that, under the
circumstances, the challenged *452 action ‘might be
considered sound trial strategy.’ ”
Id. (quoting
Michel
v. Louisiana, 350 U.S. 91, 101, 76 S.Ct. 158, 100 L.Ed. 83
(1955)). “Judicial scrutiny of counsel's performance must be
highly deferential.”
Id. In Occhicone v. State, 768 So.2d
1037, 1048 (Fla.2000), this Court explained that “strategic
decisions do not constitute ineffective assistance of counsel
if alternative courses have been considered and rejected
and counsel's decision was reasonable under the norms of
professional conduct.” With these standards in mind, we now
address Shellito's claims of ineffective assistance of trial
counsel.

I. Ineffective Assistance During Voir Dire
[6] Shellito asserts that his trial counsel was ineffective for
failing to question prospective jurors about “major issues,”
such as drugs, alcohol, abuse, and mental illness. The
postconviction court found that trial counsel's decision to not
question the prospective jurors with respect to their views on
these subjects was tactical. Shellito was solely represented at
trial by Refik Eler. Eler testified at the evidentiary hearing that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

Shellito's case was one of his first capital appointments as lead
counsel. Eler maintained that he made the strategic decision
to not present evidence of Shellito's alcohol and marijuana use
at trial. Eler testified that in Duval County, in his experience,
“the juror venire are not very sympathetic to [drugs and
alcohol] as an excuse and even to an extent ... aggravation.”
Shellito has failed to demonstrate that any selected juror
was biased or had an animus towards the mentally ill or

use to establish a voluntary intoxication defense. 6 The
postconviction court found that Eler made a tactical decision
to not investigate or pursue an intoxication defense at trial.
We note that several witnesses at the evidentiary hearing
testified to Shellito's daily use of alcohol and marijuana.
However, because an intoxication defense would have been
inconsistent with the defense's theory that Shellito did not
commit the murder, Eler made a reasonable, tactical decision

individuals with substance abuse problems. See
Davis v.
State, 928 So.2d 1089, 1117 (Fla.2005). Shellito has failed to
demonstrate that Eler was ineffective in this regard.

to not pursue a voluntary intoxication defense. See
Brown
v. State, 894 So.2d 137, 146 (Fla.2004) (“Failure to present an
intoxication defense cannot constitute ineffective assistance
of counsel when the defendant asserts his innocence.”).

[7] Shellito also argues that Eler allowed selection of jurors
who had friends or relatives employed by law enforcement
and who possessed technical knowledge pertinent to the
case. Shellito asserts that Eler was ineffective in failing
to determine if the prospective jurors could disregard their
specialized training. The postconviction court found Eler's
testimony—that he conferred with Shellito about the selection
of jurors—to be “more credible and more persuasive” than
Shellito's allegations. The specialized training possessed by
the particular jurors does not in and of itself rise to the level
of a for cause challenge and does not demonstrate actual bias.
Shellito's claim is speculative. See Green v. State, 975 So.2d
1090, 1105 (Fla.2008) (“[A]n allegation that there would
have been a basis for a for cause challenge if counsel had
followed up during voir dire with more specific questions
is speculative.”). Because Shellito has failed to prove that
Eler was deficient during voir dire, we need not address the
prejudice prong. 4 See
S.Ct. 2052.

Strickland, 466 U.S. at 697, 104

II. Ineffective Assistance During Guilt Phase
[8] Shellito claims that Eler was ineffective for failing
to present sufficient evidence implicating Stephen Gill as
the actual shooter. Shellito argues that Shellito's mother's
testimony at trial that Gill confessed to the murder would
have been substantiated had the defense investigator also
testified. Eler testified at the evidentiary hearing that listing
his investigator as a trial witness could have resulted in the
revealing of facts and circumstances of the investigation. We
find that Shellito *453 has not proven that Eler was deficient
in this regard.

5

[9] Shellito contends that Eler was ineffective in failing
to present evidence of Shellito's alcohol and marijuana

[10] Shellito also claims that Eler was ineffective when
he opened the door to Theresa Ritzer's highly prejudicial
testimony. On direct examination, Ms. Ritzer testified that
Shellito confessed to her shortly after the murder. Eler
attempted to discredit Ms. Ritzer's testimony on crossexamination by having her admit that she failed to mention
Shellito's confession in her initial statement to the police. On
redirect, however, Ms. Ritzer testified that Shellito held a gun
to her head and said that if she talked then he would kill her
because he had killed before. At the evidentiary hearing, Eler
testified that it was very important for him to delve into this
area and he did not anticipate opening the door to damaging
evidence. The postconviction court found that Eler's decision
to question Ms. Ritzer on this matter was tactical. We find
that Shellito has failed to prove that Eler was deficient in
his decision to impeach Ms. Ritzer after she had testified
to Shellito's murder confession. See
Owen v. State, 986
So.2d 534, 553 (Fla.2008) (finding counsel not ineffective
“for making a strategic decision to present evidence, even
when in hindsight that decision opened the door to admission
of evidence that is not entirely favorable to the defendant”). 7
Shellito has failed to prove that Eler was ineffective during
the guilt phase. 8

III. Ineffective Assistance During Penalty Phase
A. Deficiency
[11] Shellito contends that he was provided ineffective
assistance of trial counsel during the penalty phase based
on Eler's failure to adequately investigate and present
mitigating evidence. Penalty phase claims of ineffective
assistance of counsel are also reviewed under the two-

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

prong test established by
Strickland, and “[i]n reviewing
a claim that counsel's representation was ineffective based
on a failure to investigate or present mitigating evidence,
the Court requires the defendant to demonstrate that the
deficient performance deprived the defendant of a reliable
penalty phase proceeding.” Hoskins v. State, 75 So.3d 250,
254 (Fla.2011). In determining *454 whether the penalty
phase proceeding was reliable, “the failure [of counsel] to
investigate and present available mitigating evidence is a
relevant concern along with the reasons for not doing so.”
Rose v. State, 675 So.2d 567, 571 (Fla.1996).

impairment. Further, the evidence submitted to support
his mental condition was conflicting. In evaluating this
evidence, the trial judge recognized that Shellito's father
was an alcoholic and that Shellito did not do well in
school; that he had been placed in a special education class;
and that he had been in several treatment and diagnostic
facilities without any specific diagnosis of mental illness
or other disabling conditions. These inferences could be
properly drawn from the evidence introduced at trial. On
this record, we cannot conclude that the trial judge abused
his discretion in finding this mitigating evidence to be of
slight weight.

[12] [13] [14] [15] “It is unquestioned that under the [FN: Shellito introduced documents reflecting that he was
diagnosed in 1991 as having “organic mental disorder,”
prevailing professional norms ... counsel ha[s] an ‘obligation
“conduct disorder undifferentiated,” and “developmental
to conduct a thorough investigation of the defendant's
language disorder.” However, that same documentation
background.’ ”
Porter v. McCollum, 558 U.S. 30, 39,
reflects that he appeared to be well oriented in all areas,
130 S.Ct. 447, 175 L.Ed.2d 398 (2009) (quoting
Williams
showed no signs of psychosis, and showed no impairment
v. Taylor, 529 U.S. 362, 396, 120 S.Ct. 1495, 146 L.Ed.2d
of concentration and memory....]
389 (2000)); see also

Hannon v. State, 941 So.2d 1109,

1124 (Fla.2006) (“Pursuant to
Strickland, trial counsel
has an obligation to conduct a reasonable investigation into
mitigation.”). Moreover, counsel must not ignore pertinent
avenues for investigation of which he or she should have
been aware. See
Porter, 558 U.S. at 40, 130 S.Ct. 447.
“[I]t is axiomatic that ‘counsel has a duty to make reasonable
investigations or to make a reasonable decision that makes
particular investigations unnecessary.’ ”

Hurst v. State,

18 So.3d 975, 1008 (Fla.2009) (quoting
Strickland, 466
U.S. at 691, 104 S.Ct. 2052). However, “[c]ounsel's decision
not to present mitigation evidence may be a tactical decision
properly within counsel's discretion.”
Hannon, 941 So.2d
at 1124. This Court has found counsel's performance deficient
where counsel “never attempted to meaningfully investigate
mitigation” although substantial mitigation could have been
presented.
Asay v. State, 769 So.2d 974, 985 (Fla.2000).
We now apply these principles to counsel's performance in
this case.
On July 21, 1995, the jury convicted Shellito of the murder of
Sean Hathorne, and the penalty phase commenced exactly one
month later. In reviewing the mitigation evidence presented
at the penalty phase, we stated on direct appeal:
Shellito presented no medical or other expert testimony
to support his claims of organic brain damage or other

Shellito, 701 So.2d at 844 n. 4, 844–45.
The record reveals that on April 17, 1995, Eler moved
for a confidential psychiatric evaluation of Shellito by Dr.
Ernest Miller. In this motion, Eler raised the possibility
of Shellito being mentally incompetent to proceed and
insane. On April 17, 1995, the trial court granted Shellito
a confidential psychiatric evaluation. 9 *455 Eler testified
at the evidentiary hearing that he conducted some of the
penalty phase preparation during his guilt phase preparation.
On June 26, 1995, Eler met with Shellito's parents, and
thereafter, he requested records from Charter Hospital, Grant
Center Hospital, Baptist Hospital, the Naval Hospital of
Jacksonville, and Dr. Angeles Alvarez–Mullin. 10 On August
15, 1995, Eler's office requested records from the Duval
County School Board. Additionally, on August 15, 1995, Eler
received documents from Dr. Mullen's office. Eler testified
that by August 16, 1995, he would have received the Naval
Hospital records. On August 17, 1995—four days before the
penalty phase commenced—the investigator for the defense
obtained records from Baptist Hospital, Charter Hospital, and
the Duval County School Board.
According to his testimony at the evidentiary hearing,
Eler's decision not to have Dr. Miller testify at the penalty
phase was based on his conversation with Dr. Miller on
August 16, 1995. 11 Eler noted the consequences of having
a defense expert testify during the penalty phase: cross-

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

examination would have revealed a significant amount of
12

negative information
and all of Shellito's records could
have been admitted by the State. In addition, Eler cited to
expert rebuttal testimony offered by the State, if the defense
proceeded with having an expert testify. Having reviewed the
records, Eler testified that he made the strategic decision to
choose to present some of the records. Eler explained that
through the testimony of Shellito's family members, the jury
would be informed of Shellito's mental issue. 13 Eler also
testified that he also spoke to Dr. Elias Sarkis about organic
brain disorder; however, Dr. Sarkis testified at the evidentiary
hearing that the consultation involved the issue of insanity and
that Eler did not ask about mitigation.
[16] The postconviction court did not find Eler ineffective,
reasoning that it was within the wide range of professional
judgment for Eler to make a tactical decision to have certain
aspects of Shellito's background presented at trial through
family *456 members. We conclude, however, that Shellito
has satisfied his burden of showing that Eler's performance in
mounting a limited investigation and presentation of Shellito's
substantial mental health problems was “unreasonable under
prevailing professional norms.” Arbelaez v. State, 898 So.2d
25, 34–35 (Fla.2005) (quoting Valle v. State, 778 So.2d 960,
965 (Fla.2001)).
As previously noted, this was one of counsel's first capital
cases where he was lead counsel and handled both the guilt
and penalty phases of the trial. He was appointed to represent
Shellito on February 22, 1995. While counsel indicated that
he conducted some preparation for the penalty phase during
the guilt phase, the record shows that counsel met with the
defendant's parents on June 26, 1995, shortly before the guilt
phase of the trial began. It was after the guilt phase, during
the month of August 1995, that counsel sought and obtained
medical and school records for a penalty phase that began
on August 21, 1995. The reports indicated that Shellito had
some mental health issues. Although Dr. Miller, who had
performed a competency evaluation, was consulted at this
point, there was no true follow-up on the matters indicated
in the various reports. Yet counsel made a marginal attempt
to present organic brain damage and other impairment as
mitigation.
Under these circumstances, Eler was deficient in failing to
follow up with the indications of Shellito's mental health
issues, and in failing to have Shellito's mental health issues
presented by an expert at trial to explain their significance
and impact on his behavior at the time of the murder. Having

determined that Shellito has satisfied the deficiency prong, we
now consider the prejudice prong.

B. Prejudice
[17] Shellito asserts that the mitigation presented at the
evidentiary hearing was qualitatively and quantitatively
different from that presented at trial. “Penalty phase prejudice
under the
Strickland standard is measured by whether the
error of trial counsel undermines this Court's confidence in
the sentence of death when viewed in the context of the
penalty phase evidence and the mitigators and aggravators
found by the trial court.”
Hurst, 18 So.3d at 1013.
That standard does not “require a defendant to show ‘that
counsel's deficient conduct more likely than not altered
the outcome’ of his penalty proceeding, but rather that he
establish ‘a probability sufficient to undermine confidence
in [that] outcome.’ ”

Porter, 558 U.S. at 44, 130 S.Ct.

447 (quoting
Strickland, 466 U.S. at 693–94, 104 S.Ct.
2052). “To assess that probability, [the Court] consider[s]
‘the totality of the available mitigation evidence ...’ and
‘reweig[hs] it against the evidence in aggravation.’ ”

Id.

at 41, 130 S.Ct. 447 (quoting
Williams v. Taylor, 529
U.S. 362, 397–98, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000)).
We now review the evidence adduced during the evidentiary
hearing.

Evidentiary Hearing
No mental health mitigation, statutory or otherwise, was
considered or found by the trial court. Yet, at the
postconviction evidentiary hearing, the defense presented
mental health evidence that could have been presented to the
penalty phase jury. Dr. William Riebsame, a psychologist,
evaluated Shellito in May of 2004. At the evidentiary hearing,
Dr. Riebsame opined that Shellito's organic brain damage
probably occurred after choking on milk when he was just
a few days old. According to Dr. Riebsame, this incident
might have been a precursor to the cognitive difficulties
*457 Shellito experienced during his lifetime, and Shellito's
learning disability probably reflected the organic brain
damage. Dr. Riebsame conducted a neuropsychological test,
finding that Shellito had at least mild to moderate impairment
in a variety of frontal lobe functions, but later stated that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

he was within the average to moderate impairment range.
Dr. Riebsame diagnosed Shellito with bipolar disorder not
otherwise specified, which may have resulted from organic
brain damage.
Dr. Riebsame opined that at the time of the murder, Shellito
was under the influence of extreme mental or emotional
disturbance based on his organic brain dysfunction, mood
disorder, and erratic behavior which could have been a
function of his bipolar disorder, and that Shellito's ability to
appreciate and conform his conduct to the requirements of the
law was impaired. Dr. Riebsame also opined that at the time
of the murder, Shellito had a mental age of fourteen or fifteen
years, an emotional age of twelve or thirteen years, an IQ in
the low-average range, the presence of organic brain damage,
erratic mood swings that often precipitated either depressed
episodes that caused suicide attempts or manic episodes
that led to aggression, impulse control problems, alcohol
dependence, cannabis abuse or dependence, and personality
dysfunction or disorder. Dr. Riebsame noted a history of
cognitive disorder and antisocial personality, a prior head
injury, verified physical and sexual abuse, and that Shellito's
parents contributed to the abuse experienced by Shellito.
Postconviction counsel had Shellito undergo a Positron
Emission Tomography (PET) scan of his brain on August
4, 2004. Dr. Joseph Wu, a psychiatrist, testified at the
evidentiary hearing as to his findings after he had reviewed
the PET images: abnormalities in the ratio of activity between
the different regions, which falls outside of the range of
normal variability and is consistent with a brain abnormality;
an abnormality in the asymmetry between the left and right
side of the temporal lobe areas which is significantly outside
the range of normal variability; less activity in the left
temporal lobe than in the right temporal lobe; an abnormality
in the front and back ratio; and an abnormality in the frontal
lobe (which involves the abilities to exercise proper judgment
and to inhibit acting out inappropriate impulses). Dr. Wu
opined that the images were not inconsistent with a bipolar
diagnosis or a diagnosis of organic brain damage. 14
Dr. Sarkis, who was Shellito's attending psychiatrist at Grant
Center Hospital in October 1991, testified at the evidentiary
hearing that Shellito was referred to the Grant Center because
of his behavioral problems, including arson, suicidal and
homicidal threats, and running away. Dr. Sarkis' conclusion
was that Shellito has organic brain syndrome, that he was
three to seven years behind in his chronological age, and that
his IQ was below average. Dr. Sarkis opined that Shellito

qualified as having severe mental or emotional disturbance.
Shellito's brain deficit causes impulsive aggression and very
poor planning ability, that his ability to make decisions
is significantly impaired by his impulsivity, and that his
cognitive faculties have never been intact.
Dr. Craig Beaver, a psychologist, examined Shellito in May
2002. Dr. Beaver testified at the evidentiary hearing that
Shellito met the criteria for organic brain *458 syndrome
and cognitive dysfunction. Dr. Beaver noted Shellito's
significant early developmental delay, substantial emotional
and behavioral problems, and that his IQ was below average.
Dr. Beaver also cited Shellito's mood regulation disorder, his
problems with depression and emotional control reflective
of bipolar disorder and personality difficulties secondary to
organicity, a history of drug and alcohol abuse, an abusive and
very neglectful environment, and suicide attempts. Dr. Beaver
testified that the organicity and neglect in his family caused
Shellito's antisocial behavior. Dr. Beaver opined that at the
time of the murder Shellito was suffering from an extreme
emotional disturbance and had significant limitations on his
ability to conform his behavior or appreciate the fact that one
of the consequences of armed robbery could be that someone
might get killed.
Fact witnesses also testified at the evidentiary hearing.
Shellito's older sister, Rebecca, testified that Shellito hit his
head against the wall when he got mad, was depressed,
talked like a nine-year-old when he was actually thirteen, was
called “retarded,” and wet the bed until the time he went to
prison. Rebecca testified about Shellito's mother's infidelities.
Shellito's mother would leave her children at home without
arranging for supervision or food for at least a day or two at a
time. Rebecca recalled coming home from school and seeing
three-year-old Shellito home alone. Rebecca also testified that
one time when Shellito's mother was pulled over by a police
officer, everyone had to eat marijuana, including Shellito who
was eight years old at the time. Shellito's mother would hit the
children with her hands, shoes, hangers, and electric cords.
While drinking with her friends, Shellito's mother would
announce that she would make her children dance and then
proceed to hit them with a cord. Shellito's mother arranged for
a man to move into her home to watch her children despite
knowing that he had molested his sisters. Thereafter, this
man molested Rebecca for two years. Shellito's mother told
Shellito to let her see his penis. Shellito's mother would tell
Shellito to act like a baby and he would put his head in her
lap. She would then expose her breast and hit him with it.
Shellito's mother would say to her children that she wished

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

she never had them, and that they ruined her life. Shellito's
mother would hit their father in the presence of their children.
Shellito did not spend time with his father unless he was being
whipped.
Allison Winnicki, Shellito's kindergarten teacher, testified
that Shellito was emotionally handicapped, had mood swings,
was a loner, ate glue and paper, and would be fine one minute
but then something would come over him that he could not
control. Shellito would sit on her lap and cry sometimes and
say that he did not want to be like he was but that he could
not help himself. Ms. Winnicki had a very close bond with
Shellito, which was the one stability he had in his life. Ms.
Winnicki heard from a neighbor that Shellito would scavenge
for food, sometimes in garbage cans, and roam late at night.
An investigator for Shellito's postconviction counsel testified
at the evidentiary hearing that in March 2003, she spoke
to Ms. Johnnie McKinsey, who, from 1982 to 1987, was
Shellito's elementary school special education teacher in a
class for emotionally handicapped students. Ms. McKinsey
told the investigator that she saw signs of abuse or neglect,
that Shellito was not able to work at the appropriate grade
level, and that he came to school hungry, dirty, in need of a lot
of attention, and was easily frustrated. Ms. McKinsey referred
Shellito to counseling.
*459 Other witnesses testified that Shellito's mother
smacked her children, was verbally abusive, had issues
with drinking and used marijuana regularly, and was very
depressed and emotional. There was a lack of structure in
the home. As to Shellito, witnesses described him as being
mentally disturbed with behavioral and emotional issues,
a loner and follower, immature, quick-tempered, unstable,
frustrated, appeared to be on psychiatric medicine, defiant,
prone to temper tantrums and fighting, and would run away.
Shellito was picked on for stuttering and called a “dummy”
and “slow.” Shellito was observed drinking alcohol heavily
every day until he passed out and smoking marijuana daily
including using both the night of his arrest. According to one
witness, the alcohol and drugs began to adversely affect him
at eighteen years old.
[18] This postconviction evidence shows a different picture
of Shellito's upbringing than what was presented at trial. See
Shellito, 701 So.2d at 844 (“The defendant was raised in a
stable, lower middle class home with his mother, older sister
and brother.”) (emphasis added). We conclude that based
on consideration of the plethora of available mitigation and
the dearth of mitigation actually presented, when reweighed

against the aggravation in this case, 15 our confidence in
the outcome of the penalty proceeding is undermined. Thus,
Shellito has satisfied the prejudice prong of
Strickland.
Accordingly, we vacate the sentence of death and remand for
a new penalty phase proceeding.

Brady and Giglio
[19]

Shellito asserts claims under both

Brady 16 and

Giglio. 17 Such claims present mixed questions of law
and fact. See Sochor, 883 So.2d at 785. This Court defers
to the lower court's findings of fact if they are supported by
competent, substantial evidence. See
Hurst, 18 So.3d at
988. This Court reviews the trial court's application of the law
to the facts de novo.

Id.

[20]
[21]
[22] To meet the requirements of
Brady,
a defendant must show that “(1) favorable evidence—either
exculpatory or impeaching, (2) was willfully or inadvertently
suppressed by the State, and (3) because the evidence was
material, the defendant was prejudiced.” Parker v. State, 89
So.3d 844, 865 (Fla.2011). Shellito suggests that the State's
decision in no longer seeking to prosecute Bays as a Habitual
Violent Felony Offender (“HVFO”) in his armed robbery
case was in exchange for Bays' testimony during Shellito's
trial. By the time Bays testified at Shellito's trial, the State
withdrew its notice of intent to prosecute Bays as an HVFO.
Contrary to Shellito's assertion, the record reveals that there
was no agreement entered into between Ricky Bays and the
State whereby Bays' testimony in Shellito's murder trial was
agreed to be offered in consideration for the State's disposition
of Bays' armed robbery case. 18 *460 As there was no
promise or agreement demonstrated by Shellito—other than
the negotiated plea agreement Bays and the State entered
into after the disposition of Shellito's case—there was no
“favorable evidence” in violation of
Shellito has failed to establish a
[23]

[24]

Brady. Accordingly,

Brady violation.

Shellito contends that the State committed a

Giglio violation due to the State's filing of the withdrawal
notice of its intent to prosecute Bays as an HVFO. To
establish a violation of
Giglio, a defendant must prove:
“(1) that the testimony was false; (2) that the prosecutor

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

knew the testimony was false; and (3) that the statement
was material.”
Robinson v. State, 707 So.2d 688, 693
(Fla.1998). Giglio stands for the proposition that a prosecutor
“has a duty to correct testimony he or she knows is false
when a witness conceals bias against the defendant through
that false testimony.” Routly v. State, 590 So.2d 397, 400
(Fla.1991). “[T]he thrust of
Giglio and its progeny has
been to ensure that the jury know the facts that might
motivate a witness in giving testimony, and the prosecutor not
fraudulently conceal such facts from the jury.”
707 So.2d at 693.

Robinson,

[25] Bays testified during the guilt phase that it was his
understanding that his maximum possible penalty was life
imprisonment in his armed robbery case; that he was not
promised anything for his testimony by the State Attorney's
office or by the police; and that he understood that he could
also receive a fifteen-year minimum mandatory sentence.
Shellito contends that Bays testified falsely at trial when
he said he was not receiving any benefit for his testimony.
However, such statement was not false as the evidentiary
hearing was devoid of evidence of an agreement for the
withdrawal of HVFO, or any other benefit, in consideration
for Bays' testimony. Shellito also argues that Bays testified
falsely at trial when he was facing life in prison due to
his status as a habitual offender. However, there was no
mention of “habitual offender” status during Bays' testimony.
In addition, Bays' testimony that he was facing life in prison
was not untrue since even without the habitual offender status,
Bays was still facing a life sentence. See

McDonald v.

State, 957 So.2d 605, 613 (Fla.2007) (“Pursuant to section
812.13(2)(a), Florida Statutes (2000), armed robbery is a
felony punishable by life.”). Shellito contends that Bays
testified falsely at trial when he said he was facing a fifteenyear mandatory minimum. We agree that such testimony was
false. False evidence is material “if there is any reasonable
likelihood that the false testimony could have affected the
judgment of the jury.”

Guzman v. State, 868 So.2d 498, 506

(Fla.2003) (quoting
United States v. Agurs, 427 U.S. 97,
103, 96 S.Ct. 2392, 49 L.Ed.2d 342 (1976)). We find that there
was no reasonable likelihood that this false testimony could
have affected the guilty verdict. Accordingly, a
violation was not committed during Shellito's trial.

Giglio

Trial Witness' Contact with the Jury
Shellito claims that Debra Dlugosz, who served as both a trial
witness and trial court clerk, communicated with the jury in
violation of Shellito's due process rights. During the State's
rebuttal, Dlugosz testified that Shellito's mother did not tell
her that someone else confessed to the murder. Dlugosz
testified at the evidentiary hearing that she resumed her
functions as clerk after testifying in Shellito's trial. Dlugosz
stated that besides being a witness and performing her duties
as a court *461 clerk, she had no other interactions with the
jury. In denying this claim, the postconviction court found
that the record failed to support Shellito's claim that anyone
had inappropriate contact with the jury. Because Shellito has
failed to demonstrate that Dlugosz had improper contact with
the jury which deprived him of his due process rights, we deny
this claim.

Habeas Issue
[26] Shellito claims that appellate counsel on direct appeal
was ineffective in failing to raise a claim that Shellito was
absent during critical stages of his trial. We note that a
defendant has a constitutional right to be present at all “crucial
stages of his trial where his absence might frustrate the
fairness of the proceedings.”
Garcia v. State, 492 So.2d
360, 363 (Fla.1986). “However, the right ‘does not confer
upon the defendant the right to be present at every conference
at which a matter pertinent to the case is discussed, or even at
every conference with the trial judge at which a matter relative
to the case is discussed.’ ”

Orme v. State, 896 So.2d 725,

738 (Fla.2005) (quoting United States v. Vasquez, 732 F.2d
846, 848 (11th Cir.1984)).
Shellito points out that during the guilt phase, outside of the
presence of the jury and Shellito, an investigator from the
State Attorney's office informed the trial judge that witnesses
had told him that they overheard two women saying they
were going to get the names and addresses of all of the trial
witnesses and pay them a visit. The women denied making
any threats. The trial judge said that he observed them chatting
and shaking their heads during the testimony and warned
them that they would be excluded from the courtroom if any
nodding continued. The trial judge also warned them of the
penalty of contempt of court if they talked to any of the
witnesses. The jury was then brought back into the courtroom

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

with Shellito still absent. The jury was excused again for a
short recess. Shellito also asserts that he was absent when his
trial counsel agreed to have the judge talk privately about a
juror's scheduling conflict.
[27] We conclude that Shellito has failed to sufficiently
demonstrate that he was absent from critical stages of his
trial which might have frustrated the fairness of his trial.
Shellito “could have provided no useful input” had he been
present. Seibert v. State, 64 So.3d 67, 86 (Fla.2010). Shellito's
appellate counsel cannot be deemed ineffective for failing to
raise a meritless claim. See Rutherford v. Moore, 774 So.2d
637, 643 (Fla.2000) (“[T]he failure of appellate counsel to
raise [a] meritless issue will not render appellate counsel's
performance ineffective.”).

CONCLUSION
Based on the foregoing, we affirm in part and reverse in part
the circuit court's amended order denying Shellito's motion
for postconviction relief. We affirm the trial court's denial of
relief as to the guilt phase but vacate the sentence of death
and remand for a new penalty phase proceeding. We deny his
petition for a writ of habeas corpus.
It is so ordered.

POLSTON, C.J., and PARIENTE, LEWIS, QUINCE,
CANADY, LABARGA, and PERRY, JJ., concur.
All Citations
121 So.3d 445, 38 Fla. L. Weekly S550

Footnotes
1
2
3
4
5
6
7

8
9

10
11

At the time of the murder, Shellito was one month shy of nineteen years of age.
Spencer v. State, 615 So.2d 688 (Fla.1993).
Because we vacate Shellito's sentence of death and remand for a new penalty phase proceeding, we do not
address the remaining claims raised concerning Shellito's sentence and penalty phase proceeding.
We deny Shellito's conclusory assertion that Eler was deficient when he stipulated to striking for cause certain
prospective jurors based on their death penalty views.
We also deny Shellito's claim that Eler was ineffective in failing to impeach John Bennett on his prior
inconsistent statement which would have suggested that Gill was the shooter.
Voluntary intoxication was recognized as a defense at that time of the murder.
We reject Shellito's claim that Eler should have moved for a hearing under
Richardson v. State, 246 So.2d
771 (Fla.1971), concerning Ms. Ritzer's prior statement. See Brown v. State, 640 So.2d 106, 107 (Fla. 4th
DCA 1994).
We deny Shellito's claim that Eler was ineffective in failing to recall Detective Hinson.
Dr. Miller evaluated Shellito on April 21, 1995. In his report, Dr. Miller opined that Shellito was competent to
proceed, not insane at the time of the murder, and did not meet the criteria for commitment. Dr. Miller noted,
in his report, Shellito's alcohol and drug usage. Eler rejected the strategy of presenting Shellito's drug and
alcohol use as mitigation.
It should be noted that Eler again requested records from Baptist Hospital, Charter Hospital, the Naval
Hospital, Dr. Alvarez–Mullin on August 10, 1995—eleven days before the start of the penalty phase.
On the day of this conversation, Eler faxed Dr. Miller a copy of Grant Center Hospital's one-page discharge
summary related to Shellito. Eler maintained that Shellito's brain disorder was specifically discussed
during the conversation. According to Eler, both he and Dr. Miller were aware of Shellito's organic mental
disorder, developmental language and reading disorder, the taking of Tegretol, conduct disorder, a history
of aggressive behavior, and homicidal and suicidal threats.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Shellito v. State, 121 So.3d 445 (2013)
38 Fla. L. Weekly S550

12

13

14
15

The negative information which Eler did not want the jury to consider included as follows: Shellito was
competent, he knew right from wrong, he was able to appreciate the crime, he remembered clearly the
events of the crime and was not under the influence, he was a manipulator, he functioned well with neither
mental impairment nor an indication of significant neurological impairment, he suffered from oppositional
defiant disorder and antisocial personality disorder, he was prescribed medicine used to treat agitation and
aggression, his criminal history, he had threatened to shoot himself in the past, he had problems with his
mother, he was unable to conform to inmate housing, he had demonstrated certain above-average skills and
activities, and he was compliant and showed good control.
Some of the psychological, medical, and drug treatment records from Charter Hospital, Grant Center Hospital,
Baptist Hospital, Naval Hospital, Dr. Alvarez–Mullin, as well as Shellito's school records, were entered into
evidence in the penalty phase.
The State offered the testimony of Dr. Lawrence Holder, who also reviewed Shellito's scan. In rebutting Dr.
Wu's testimony, Dr. Holder, finding no single abnormality, concluded that Shellito's scan was normal.
The trial judge found two statutory aggravators: (1) prior violent felonies and (2) pecuniary gain/committed
during a robbery (merged).
Shellito, 701 So.2d at 840. The State presented evidence at the penalty phase
that Shellito was convicted of two armed robberies committed on the night of August 31 before the raid, an
aggravated assault on a law enforcement officer that occurred the night of the raid, and an aggravated assault
that occurred in March 1994.

16
17
18

Id. at 839.

Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963).
Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763, 31 L.Ed.2d 104 (1972).
Jay Plotkin, the trial prosecutor, testified that he personally filed the withdrawal notice in Bays' armed robbery
case because Bays did not qualify as an HVFO. Plotkin also testified that Bays was cooperative “from the
minute he was arrested” as demonstrated by his statement to the police.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

